No. 19-123
In the

Supreme Court of the United States
SHARONELL FULTON, et al.,
Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, et al.,
Respondents.
On Writ of Certiorari to the United States
Court of A ppppeals for the Third Circuit

BRIEF FOR AMICI CURIAE, CATHOLIC
CHARITIES OF THE DIOCESE OF
SPRINGFIELD IN ILLINOIS, AND CATHOLIC
CHARITIES OF THE DIOCESE OF JOLIET,
INC., IN SUPPORT OF PETITIONERS
Joan M. Mannix
Thomas More Society Special
Counsel
Joan M. Mannix, Ltd.
135 South LaSalle Street,
Suite 2200
Chicago, IL 60603
(312) 521-5845

Thomas Olp
Counsel of Record
Thomas Brejcha
Thomas More Society
A National Public Interest
Law Firm
309 W. Washington, Suite 1250
Chicago, IL 60606
(312) 782-1680
tolp@thomasmoresociety.org

Counsel for Amici Curiae
296452

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . iv
INTEREST OF AMICI CURIAE, CATHOLIC
CHARITIES OF SPRINGFIELD, ILLINOIS,
A N D CAT HOLIC CH A R I T I E S OF
JOLIET, ILLINOIS . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY OF
ARGUMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

I N CA NCELLI NG CAT HOLIC
CHARITIES’ OV ER 40 YEA RS OF
SUPERIOR FOSTER CARE SERVICE IN
2011, THE STATE OF ILLINOIS HARMED
ILLINOIS CHILDREN CONTRARY
TO ITS DUT Y TO ACT IN THEIR
BEST INTERESTS. . . . . . . . . . . . . . . . . . . . . . . . 6
A. Like Catholic Social Ser vices in
Philadelphia, Catholic Charities in
Illinois for Many Decades Effectively
Cared for Illinois Foster Children
Until Their Services Were Abruptly
Cancelled By the State of Illinois in 2011,
Following Passage of Illinois’ Religious
Freedom and Civil Union Act . . . . . . . . . . . . 6

ii
Table of Contents
Page
1.

Catholic Charities Effectively Cared
For Illinois Foster Children For Over
40 Years, From 1965 to 2011 . . . . . . . . . 6

2. Catholic Charities in Illinois Was
Rated Among the State’s Most
Effective Foster Care Agencies  . . . . . . 8
3.

The State of Illinois Ignored
Catholic Charities’ Superior Foster
Care Performance In Terminating
Their Services in 2011 Following
Passage of the Illinois Religious
Freedom and Civil Union Act . . . . . . . 11

B. Illinois’ Cancellation of Catholic
Charities’ Foster Care Services After 40
Years of Superior Performance Harmed
Illinois Children in Foster Care . . . . . . . . . 13
1.

I l l i noi s Law R e qu i r e s t h at
Dec i sions A f fec t i ng I l l i noi s
Foster Children Be Made in their
“Best Interest”  . . . . . . . . . . . . . . . . . . . 13

2. Illinois Harmed Illinois Children
By Cancelling Its Foster Care
R el at ion sh ip W it h Cat hol ic
Charities, W hich Eliminated
Their Extensive Foster Parent
R e c r u it ment Net work A t a
Time of Critical Need . . . . . . . . . . . . . . 16

iii
Table of Contents
Page
3.

Illinois Risked Harmful Disruption
of Care to Illinois Children In
Threatening to Abr uptly
Transfer All of Catholic Charities’
Cases to Other Agencies  . . . . . . . . . . . 20

II. I L L I NOI S ’ CA NC EL L AT ION OF
CATHOLIC CH A RITIES’ FOSTER
CA RE SERV ICES H A RMED THE
BEST INTERESTS OF ILLINOIS
FOSTER CHILDREN, A ND
CONFERRED NO BENEFIT ON SAMESEX COUPLES, WHO HAD READY
ACCESS TO QUA LIFICATION A S
FOSTER PARENTS . . . . . . . . . . . . . . . . . . . . . . 23
III. CATHOLIC CHARITIES’ EXPERIENCE
I N I L L I NOI S T E A C H E S T H A T
A C C O M M O DA T I O N O F FA I T H BASED FOSTER CARE AGENCIES
IS NOT ONLY COMPATIBLE WITH
T H E I N T ER E S T OF S A M E - SE X
COUPLES TO QUALIFY AS FOSTER
PARENTS, IT IS NECESSARY FOR
SECURING THE BEST INTEREST
OF DISTRES SED CHILDREN IN
NEED OF FOSTER CARE  . . . . . . . . . . . . . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

iv
TABLE OF CITED AUTHORITIES
Page
Cases
American Legion v. American Humanist Ass’n,
139 S. Ct. 2067 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . 13
In re Jaron Z.,
348 Ill. App. 3d 239 (1st Dist. 2004)  . . . . . . . . . . . . . 15
People v. J.B. (In re M.I.),
2016 IL 120232 (Ill. S. Ct. 2016)  . . . . . . . . . . . . . . . . 14
People v. Nancy L. (In re Tasha L.-I.),
383 Ill. App. 3d 45 (1st Dist. 2008)  . . . . . . . . . . . . . . 15
Statutes and Other Authorities
20 ILCS 520/1-1  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
20 ILCS 520/1-5  . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  14, 15
704 ILCS 405/2-10(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
705 ILCS 405/1-3(4.05)  . . . . . . . . . . . . . . . . . . . . . . . . . . 14
705 ILCS 405/2-4(1)(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
705 ILCS 405/2-27.2(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
705 ILCS 405/2-29(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

v
Cited Authorities
Page
750 ILCS 75/1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 3
American Psychiatric Association Diagnostic
and Statistical Manual of Mental Disorders,
(5th ed.), Arlington, VA: American Psychiatric
Publishing (2013), Section 313.389 (F94.1) . . . . . . . . 20
Chaffin, et al., Report of the APSAC Task Force on
Attachment Disorder, and Attachment Problems,
2.1 Child Maltreatment 76 (February 2006) . . . . . . 21
Drisko, James W., Zilberstein, Karen, What
Works in Treating Reactive Attachment
Disorder: Parent’s Perspectives, 89(3) Families
in Society: The Journal of Contemporary
Human Services, 476 (July 2008)  . . . . . . . . . . . . . . . 21
Editorial Board, The Crisis in Foster Care,
January 10, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Emily Wax-Thibodeaux, We are Just Destroying these
Kids, Washington Post, December 30, 2019  . . . . . . 18
Foster Care Housing Cr isis, Chronicle of
Social Change, October 31 . . . . . . . . . . . . . . . . . . . . . 16
Gean, M. Gillmore, J., Dowler Infants and Toddlers in
Supervised Custody: A Pilot Study for Visitation,
(24)(B) Journal of the American Academy of
Child and Adolescent Psychiatry (1985) . . . . . . . . . .20

vi
Cited Authorities
Page
J e d d M e d e f i n d , Ne w B a r n a R e s e a r c h
Highlights Christian Adoption & Foster
Care Among 3 Most Notable Vocational
Trends, February 12, 2014 . . . . . . . . . . . . . . . . . . . . . 19
Karyn Purvis Institute Child Development,
TBRI: An Overview: Putting the Pieces
Together, Youtube (February 1, 2016)  . . . . . . . . . . . 21
K ay La za r, Fo r Fost er Parents , Ch a otic
State System Makes Job Even Harder,
The Boston Globe, April 13, 2019  . . . . . . . . . . . . . . .  17
Nichole Noonan, New Documentary On Reactive
Attachment Disorders, Institute for Attachment
& Child Development, January 1, 2018  . . . . . . . . . . 21
O’Keefe, Souther n Illinois Facing Foster
Parent Shortage, February 15, 2012  . . . . . . . . . . . . 16
Semanchin, Jones, Wells, Susan J., Path/WisconsinBremer Project: Preventing Placement
Disruptions in Foster Care, January 15, 2008 . . . . 20
Summary Judgment Order 2, Catholic Charities of
the Diocese of Springfield, et al. v. Madigan, et al.,
No. 2011-MR-254 (Ill. Cir. Ct. Aug. 18, 2011)  . . . . . 12
U. S . Depa r t ment of He a lt h a nd Hu m a n
Services, Administration for Children and
Families, Number of children in foster care
continues to increase, November 30, 2017 . . . . . . . .  17

vii
Cited Authorities
Page
U.S. Department of Health and Human Services,
Administration for Children and Families, The
AFCARS Report 26, (August 22, 2019). . . . . . . . . . . 14
Wayne Winston Sharp, The Human, Social,
And Economic Cost of Aging Out of Foster
Care, Adoption Advocate, May 2015 . . . . . . . . . . . . . 18

1
INTEREST OF AMICI CURIAE, CATHOLIC
CHARITIES OF SPRINGFIELD, ILLINOIS, AND
CATHOLIC CHARITIES OF JOLIET, ILLINOIS1
Amicus curiae, Catholic Charities of the Diocese of
Springfield in Illinois (“Catholic Charities of Springfield”),
is an Illinois non-profit 501(c)(3) corporation and an
integrated auxiliary of the Roman Catholic Diocese
of Springfield, Illinois. It has been operating for close
to 100 years and provides an extensive range of social
services (see https://cc.dio.org/programs/). Its mission is
to “extend to all the healing and empowering presence of
Jesus.” See https://cc.dio.org/. From 1965 to 2011 it acted
as a foster care agency and, in that capacity, cared for
thousands of distressed Illinois children. In 2011, while
performing superior service on behalf of about 325 foster
children, the State of Illinois (“the State” or “Illinois”))
abruptly terminated its foster care services following
enactment of Illinois Religious Freedom and Civil Union
Act, 750 ILCS 75/1 et seq. The reason: Catholic Charities
of Springfield, on religious grounds, declined to agree to
assess and qualify same-sex couples as foster parents,
although it agreed to refer such applicants to the many
DCFS field offices which could provide those services or
offer information about private agencies that could do
the same.
Amicus curiae, Catholic Charities of the Diocese
of Joliet Inc., in Illinois, is similarly organized, with a
1. The parties have consented to the filing of this brief. Amici
curiae certify that no counsel for a party authored this brief in
whole or in part and no person or entity, other than amici curiae,
their members, or their counsel, has made a monetary contribution
to its preparation or submission.

2
similar mission, and has served the Diocese of Joliet area
for over 100 years, since the early 1900’s. See https://
catholiccharitiesjoliet.org/. It was also a foster care agency
from 1965 to 2011 and cared for thousands of Illinois
children until Illinois also terminated its care of about
400 foster children in 2011, again for the same reason the
State terminated Catholic Charities of Springfield.
Amici curiae’s interest in this case is to describe
experiences they underwent in 2011 at the hands of the
State of Illinois that are similar to those being experienced
by the petitioners in the case under review. Their interest
is also to explain why the Court should not allow what
happened to amici curiae to happen again. In a nutshell,
the State of Illinois acted for same-sex couples to exclude
amici curiae from their 40+ years of foster care services,
but in doing so it perpetrated actual harm on Illinois
children, and abridged amici curiae’s religious freedom,
all without conferring a corresponding benefit on anyone.
The values at stake in this case -- interests of same-sex
couples, faith-based providers, and distressed children
-- are not part of a zero-sum game. All can readily be
realized, and must be, in order to protect the interest
of highest value, our vulnerable children. Setting the
wrong precedent in this case will only serve to encourage
continued sacrifice of our vulnerable children on an altar
of ideological conformity.
This brief reflects the views of the amici curiae and
their executive directors, Steve Roach (Springfield) and
Glenn Van Cura (Joliet), who directed their respective
organizations in 2011 and speak with personal knowledge
of the facts recited.

3
INTRODUCTION AND
SUMMARY OF ARGUMENT
Like the petitioners in the case under review, the amici
curiae, Catholic Charities of the Diocese of Springfield and
Catholic Charities of the Diocese of Joliet (collectively
“Catholic Charities”) provided decades -- over 40 years
each -- of superior foster care services to vulnerable
children in Illinois under periodic contracts with the State.
See Argument, I.A.1,2. below. In early 2011, Illinois passed
the Religious Freedom and Civil Union Act, 750 ILCS 75/1
et seq. Almost immediately the State of Illinois threatened
to terminate its contractual relationships with faith-based
foster care agencies such as Catholic Charities unless the
latter agreed to assess and qualify same-sex couples as
foster parents. A few faith-based agencies such as Catholic
Charities balked at the State’s demand. Catholic Charities
had a sincerely held belief in the Roman Catholic Church’s
centuries-long teaching that a true “marriage” consists
of the union of a man and a woman, not of two men or two
women. Catholic Charities proposed that it would refer
same-sex applicants to one of over 60 DCFS field offices
which could qualify such individuals or refer them to the
many private agencies that would. The State rejected this
proposal and when Catholic Charities declined to back
down, the State terminated its 40-year relationship with
them. These events, when compared with the case under
review, show a pattern. In each case the government
unnecessarily attempted to secure the rights of same-sex
couples at the expense of children and religious freedom.
See Argument, I.A.3. below.
In Illinois, the State’s exclusion of Catholic Charities
from foster care harmed Illinois children. Not only did

4
the action exclude top-performing faith-based agencies,
it had the effect of jettisoning the extensive foster parent
recruiting networks these agencies had developed
over decades. See Argument, I.B.2. below. With foster
parents in critically short supply in Illinois, eliminating
the capacity of Catholic Charities and other faith-based
agencies to recruit and qualify foster parents harmed
Illinois children, and violated the paramount legal
standard in Illinois and elsewhere that decisions affecting
cchildren must be driven by their “best interests”.
The State also violated the “best interests” standard
when it threatened to transfer en masse to other providers
the more than 2,500 cases managed by the five Catholic
Charities organizations in Illinois, as well as other cases
managed by a few other faith-based agencies threatened
with exclusion. The State’s threat, if carried out, would
have created discontinuities of care highly damaging
to the foster children. See Argument, I.B.3. below. The
State’s brinkmanship forced these agencies, in order to
avoid harming the children under their care, to cave in
to the State’s threat, agree to terminate their services,
and work with the State to permit an orderly transfer of
all of their cases to other agencies along with their entire
case management staffs.
Yet the State’s exclusion of Catholic Charities and
other faith-based agencies from foster care in Illinois,
and the harm to Illinois children it caused, conferred no
corresponding benefit to same-sex couples. Same-sex
couples could already access a highly capacitated system
of over 100 DCFS field offices and alternative foster care
agencies in Illinois to seek assessment and qualification as
foster parents. In 2011 litigation brought against the State

5
of Illinois by amici curiae to protest their exclusion from
foster care, the State presented no evidence that samesex couples were not readily able to find assessment and
qualification services from over 60 DCFS offices and over
50 alternative foster care agencies. The State’s exclusion
of faith-based foster care providers was thus a solution in
search of a problem and harmed Illinois children without
any countervailing benefit. See Argument, II. below.
The experience of Catholic Charities in Illinois in 2011
is instructive in the case under review because it teaches
that the interests at stake -- the interest of same-sex
couples to be foster parents, the interest of foster care
agencies to enjoy religious freedom, and the paramount
interests of vulnerable children -- are not mutually
exclusive. All can be realized without sacrificing any.
Indeed, the interests must coexist if harm to vulnerable
children is to be prevented and religious freedom
preserved. See Argument, III. below. Amici curiae urge
the Court to keep these considerations in mind in the
case under review. The foster care system need not and
should not be weaponized to achieve an ideological goal
that sacrifices religious freedom and vulnerable children
in need of foster care.

6
ARGUMENT
I.

IN CANCELLING CATHOLIC CHARITIES’
OVER 40 YEARS OF SUPERIOR FOSTER CARE
SERVICE IN 2011, THE STATE OF ILLINOIS
HARMED ILLINOIS CHILDREN CONTRARY TO
ITS DUTY TO ACT IN THEIR BEST INTERESTS.
A.

Like Catholic Social Services in Philadelphia,
Catholic Charities in Illinois for Many Decades
Effectively Cared for Illinois Foster Children
Until Their Services Were Abruptly Cancelled
By the State of Illinois in 2011, Following
Passage of Illinois’ Religious Freedom and
Civil Union Act.
1.

Catholic Charities Effectively Cared For
Illinois Foster Children For Over 40 Years,
From 1965 to 2011.

Like Catholic Social Services in Philadelphia, the
Catholic Charities of the Diocese of Springfield has
operated for many decades (it was founded in 1925) and
currently serves twenty-eight counties in Central Illinois
through over twenty assistance programs addressing a
variety of societal needs. See https://cc.dio.org/programs/.2
Catholic Charities of the Diocese of Springfield worked for
decades to find foster and permanent homes for children
before it commenced working with the Illinois Department
of Children and Family Services (“DCFS”) as a foster care
agency in or about 1965. It continued in that capacity until
2. Illinois has six dioceses: Rockford, Joliet, Peoria,
Springfield, Belleville, and the Archdiocese of Chicago.

7
2011. Its responsibilities included recruiting, training, and
qualifying foster parents, initiating child welfare plans, and
supervising their implementation on behalf of foster children
referred to them by DCFS and matched to one of their
qualified foster parents. These activities were performed
under successive one-year or multi-year contracts with
DCFS. Over the years from 1965 to 2011 Catholic Charities
of Springfield recruited thousands of foster care families
for the thousands of foster care children it cared for. It did
so through a staff of professionals and non-professionals
who devised and implemented child welfare plans for the
children it served. In 2011, when its relationship with DCFS
ended, it was serving approximately 325 foster children.
Catholic Charities of the Diocese of Joliet, Inc., like
its counterpart in Springfield, is an integrated auxiliary
of its diocese, the Roman Catholic Diocese of Joliet.
The Diocese serves seven counties in northern Illinois.
Catholic Charities of Joliet’s mission is to translate
“God’s reconciling love into professional human services,
advocate for a just and compassionate society and bring
together members of the community, church, business,
health care and government to develop effective responses
to human needs.” It started its mission over 100 years
ago, in 1914, when it operated Joliet’s Guardian Angel
Orphanage. It too delivers a myriad of basic needs and
professional services. See https://catholiccharitiesjoliet.
org/). It too was a foster care agency in partnership with
DCFS from 1965 to 2011, when its services were also
summarily terminated by the State of Illinois. During
those years it recruited and qualified thousands of foster
care parents to match with distressed children needing
foster care in its service area. In 2011 it cared for about
400 foster care children, and in that year it placed 38 foster
care children into adoptive homes.

8
The five Catholic Charities organizations in Illinois
altogether cared for over 2500 foster care children in 2011.
Significantly, Catholic Charities always subsidized their
foster care activities by ten to twenty percent because
DCFS payments were not sufficient to defray the full cost
of these activities. The extra funds contributed by Catholic
Charities came from their own network of donors, some
of whom earmarked their contributions for foster care.
2.

Catholic Charities in Illinois Was Rated
Among the State’s Most Effective Foster
Care Agencies.

In 2011, there were around 50 private foster care
agencies operating in Illinois, and over 60 DCFS field
offices, all of which managed child placements in foster
homes and could recruit and qualify applicants to become
foster care parents. DCFS measured the performance
of each agency annually against benchmarks designed
to measure movement toward desired outcomes defined
in each child’s welfare plan. These factors included
permanency, stability, frequency of contact with the foster
child and family, frequency of intra-family meetings,
supervision of caseworkers, child education, and casework
on reunification cases. 3
3. The factors pinpoint behaviors needed to address effectively
the child’s needs defined in the child welfare plan, and in that way to
achieve high quality of care for the child, as follows:
1. Permanency - Since foster care is not a desired
permanent solution, the child welfare plan aims to
move the foster child back to his or her natural home,
if possible, to the home of a relative, or to a permanent
placement (via conversion to adoption) in a foster home.

9
DCFS also rated agencies and field offices on the
number of foster children who attained permanency during
the rating period (see fn. 3, ¶1). DCFS encouraged the
All actions of the child welfare team work toward the
permanency goal.
2. Stability - Stability is essential in the care of a foster
child, who often suffers from reactive attachment
disorder as a result of being removed from the natural
home, a condition which is aggravated by successive
foster home placements. The child welfare plan aims
to find a good match with a foster family, and then to
support the child and foster family to avoid successive
foster care placements.
3. Frequency of Face to face client contact - Agency
personnel monitor the placement through regular
face to face contacts to ensure the child’s safety and
progress in achieving child welfare plan.
4. Frequency of Child and Family Meetings - The
agency supports the child in the foster family and
also the child’s relationship with his or her natural
family, as a return to the natural family is the common
permanency goal.
5. Caseworker Training and Supervision - The
agency trains and supervises the child welfare team
so that progress is made in achieving the child welfare
plan.
6. Child Education - Since placement in foster care
may disrupt the child’s school attendance, educational
goals are set and achieved.
7. Casework on Reunification Cases - If return
home is the permanency goal, the agency facilitates
progress in achieving the goal so court approval for
reunification can be achieved in a timely way.

10
licensure of foster parents who are relatives of the foster
child since statistics show better outcomes for children in
licensed relative foster homes. Agency success in achieving
licensure of relative foster homes was also rated.
Year after year DCFS rated Catholic Charities among
the top performers among its private foster care agencies
and its field offices. In Fiscal Year 2010, a typical year, the
average ratings achieved by the five Catholic Charities
organizations in Illinois who had foster care agency
contracts with DCFS (only the Archdiocese of Chicago
did not) were significantly higher than the averages for
the State’s other private agencies or for DCFS’s own field
offices. With respect to the seven factors listed in fn. 3
above, Catholic Charities averaged a score of 96.4 of 100
possible points, whereas the State’s overall average was
88.1 points, and DCFS field offices scored only 84.6 points.
Catholic Charities agencies also averaged much higher in
achieving permanency outcomes (60 points versus 48.6
points for the State as a whole and 54.5 points for DCFS
offices) as well as securing licensure of relative foster
homes (60.07% versus 56% overall, and 44.91% for DCFS
field offices).
On June 13, 2011, DCFS notified Catholic Charities of
the Diocese of Springfield that it received 106 points, out
of 114 possible points, in its review of Catholic Charities’
annual Foster Parent Law implementation plan, which
is developed to assist foster parents to effectuate the
Illinois Foster Parent Law. This score earned Catholic
Charities of the Diocese of Springfield the highest
available performance rating. Seventeen days later the
State refused to renew its contract. Catholic Charities of
the Diocese of Joliet performed equally as effectively and
experienced the same fate.

11
3.

The State of Illinois Ignored Catholic
C h a r i t i e s ’ S u p e r i o r Fo s t e r C a r e
Per formance In Terminating Their
Services in 2011 Following Passage of
the Illinois Religious Freedom and Civil
Union Act.

The Illinois Religious Freedom and Civil Union Act
was enacted in early January 2011 and took effect on
June 1, 2011. During legislative deliberation of the law
in 2010, concerns about its impact on faith-based service
providers were downplayed. The law’s title and legislative
history gave only lip service to its “Religious Freedom”
component. Almost immediately after the law took effect,
and well before its June 1, 2011 effective date, the Attorney
General of Illinois, Lisa Madigan, sent a March 8, 2011
letter to Catholic Charities and other faith-based foster
care providers, asserting that she had “received notice”
that these providers were discriminating in violation of
law. On May 5, 2011 DCFS announced that it would be
changing its regulations to “be inclusive of Civil Union
relationships relative to adoption and foster children.
The decision to proceed with providing foster care will
be yours to make, not DCFS.”
Four of the five Catholic Charities organizations in
Illinois that had foster care contracts with DCFS, Catholic
Charities of Springfield, Joliet, Peoria and Belleville, filed
a lawsuit against the State of Illinois challenging its threat
to terminate its long-standing foster care relationship
with Catholic Charities. The fifth, Catholic Charities of
Rockford, ceased performing any foster care services in
2011 and did not participate in the litigation.

12
The four Catholic Charities organizations who sued
argued, among other points, that the State could not
cite a compelling reason why it could not accept Catholic
Charities’ proposal to refer applicants whom they could
not, consistent with Catholic doctrine, assess and qualify
as foster parents to other agencies who could. However, in
August, 2011, the lawsuit was rejected by the Sangamon
County Circuit Court on summary judgment. Without
addressing the religious freedom issue, the court decided
that plaintiffs had no property interest in continued
contracts with the State and thus had no remedy when the
State discontinued contracting with them. See Summary
Judgment Order 2, Catholic Charities of the Diocese of
Springfield, et al. v. Madigan, et al., No. 2011-MR-254 (Ill.
Cir. Ct. Aug. 18, 2011). An appeal was filed, but DCFS had
sent a follow-up letter to agencies who challenged the new
law, including Catholic Charities, identifying the different
foster care agencies to which it planned immediately to
transfer their existing cases en masse. In addition, DCFS
said it would no longer license foster care applicants
recommended by Catholic Charities, effectively snuffing
out their ability to perform as foster care agencies.
After deliberating, the four litigating Catholic
Charities organizations decided to abandon their appeal
and to cease foster care services. Two Catholic Charities
organizations (Belleville and Peoria) were heavily
dependent on foster care payments from the State of
Illinois and could not continue in business without them.
Their dioceses severed ties with them and, as independent
private agencies, the agencies agreed to comply with the
State’s demand that they assess and qualify same-sex
couples as foster parents as a condition for continuing as
foster care agencies. The State effectively muscled the
Catholic dioceses of Belleville and Peoria into severing

13
their religious ministries from their religious beliefs.
Cf. American Legion v. American Humanist Ass’n, 139
S.Ct. 2067, 2074 (2019) (“removal or radical alteration” of
“a prominent community landmark” because of newfound
discomfort with religious symbolism “would be seen by
many not as a neutral act but a manifestation of religious
hostility. . . .”)(internal quotation marks and citation
omitted).
The dioceses of Springfield and Joliet would not
walk down that path and their Catholic Charities ceased
performing foster care services. In order to minimize
discontinuities of care for the children they served,
Catholic Charities agreed to transfer all of their foster
parents and case management teams, as it happened, to
the newly independent Catholic Charities in Peoria and
Belleville (and to a Lutheran foster care agency that did not
have a conscientious objection to the State’s requirement to
assess and qualify same-sex applicants as foster parents).
In this way Catholic Charities’ foster care children were
spared the negative impact of discontinuities of care that
would otherwise have occurred had Catholic Charities not
facilitated the transfer demanded by the State.
B. Illinois’ Cancellation of Catholic Charities’
Foster Care Services After 40 Years of Superior
Performance Harmed Illinois Children in
Foster Care.
1.

Illinois Law Requires that Decisions
Affecting Illinois Foster Children Be
Made in their “Best Interest”.

Children in need of foster care are not removed from
their family homes without a serious reason to do so. Of

14
262,956 children entering foster care in FY 2018, the
top five causes for removal were: Neglect (62%, 163,543);
Drug Abuse (Parent) (36%, 94,386); Caretaker Inability
to Cope (14%, 35,802); Physical Abuse (13%, 33,672); and
Housing (10%, 27,323).4 As the Illinois Foster Care Law
observes in its Legislative Findings: “Family foster care
is an essential service for children and their families who
have been separated due to the tragedy of child abuse,
neglect, or dependency.” 20 ILCS 520/1-5.
Decisions a f fecti ng cust ody a nd fost er ca re
determinations in Illinois must be undertaken in the “best
interest” of the child.5 Factors considered in determining a
child’s best interest emphasize the child’s need for stability
in the foster family, the child’s sense of familiarity and
social ties, and actions to encourage and sustain positive,
affectionate relationships with caregivers and associates.6
4. See U.S. Department of Health and Human Services,
Administration for Children and Families, The AFCARS Report
26, (August 22, 2019). https://www.acf.hhs.gov/sites/default/files/
cb/afcarsreport26.pdf [https://perma.cc/R357-FCGF] .
5. See Illinois’ Juvenile Court Act of 1987, e.g. 705 ILCS
405/2-4(1)(c) (best interest standard used to remove minor from
home for abuse or neglect); 704 ILCS 405/2-10(2) (best interest
standard used to determine temporary custody); 705 ILCS
405/2-27.2(a) (placement decisions require consideration of best
interest of child); 705 ILCS 405/2-29(2) (termination of parental
rights may be ordered if in the best interest of the child). The
term “best interest” is used almost one hundred times in this
statute. Hearings on custody are referred to as “best interest”
hearings, and rely on “best interest” reports of the child welfare
team reporting to the court. See People v. J.B. (In re M.I.), 2016
IL 120232 (Ill. S.Ct. 2016) at ¶13.
6. See Illinois’ Juvenile Court Act of 1987, 705 ILCS 405/13(4.05), lists various factors to be considered in determining the

15
The Foster Care Law, 20 ILCS 520/1-1 et seq., requires
that the foster child’s “welfare team” must promote the
foster child’s best interests by: “. . . providing protection
and nurture to children in a safe, healthy environment
. . . meeting the developmental and emotional needs of
the children . . . and [] working toward permanency
for children by connecting them to safe, nurturing
relationships intended to last a lifetime, preferably with
their own family.” 20 ILCS 520/1-5. The foster parent must
work with “caseworkers, and other professionals serving
the child and family” to “promote the best interests of
the children and families served.” Id. The team’s aim is
to devise and implement a welfare plan for the child. In
all these endeavors, the best interests of the child control.
best interests of the child, including: “(a) the physical safety and
welfare of the child . . . the child’s background and ties . . . the
child’s sense of attachments, including: (i) where the child actually
feels love, attachment, and a sense of being valued (as opposed to
where adults believe the child should feel such love, attachment,
and a sense of being valued); (ii) the child’s sense of security; (iii)
the child’s sense of familiarity; (iv) continuity of affection for the
child; (v) the least disruptive placement alternative for the child;
(e) the child’s wishes and long-term goals; (f) the child’s community
ties, including church, school, and friends; (g) the child’s need
for permanence which includes the child’s need for stability and
continuity of relationships with parent figures and with siblings
and other relatives; (h) the uniqueness of every family and child;
(i) the risks attendant to entering and being in substitute care;
and (j) the preferences of the persons available to care for the
child.” The court may also consider the nature and length of the
child’s relationship with the present caregiver and the effect on
the child’s emotional and psychological well-being of a change in
placement. People v. Nancy L. (In re Tasha L.-I.), 383 Ill. App.
3d 45, 52-53 (1st Dist. 2008) (citing In re Jaron Z., 348 Ill. App.
3d 239, 262(1st Dist. 2004)).

16
2.

Illinois Harmed Illinois Children By
Cancelling Its Foster Care Relationship
With Catholic Cha rities, W hich
Eliminated Their Extensive Foster Parent
Recruitment Network At a Time of Critical
Need.

Illinois, like many states, suffers from a chronic
shortage of foster homes.7 In the years immediately
following Catholic Charities’ exclusion as a foster care
provider (2012 to 2017), Illinois foster care beds decreased
by 1,547. 8 Yet, during the same time frame foster care
demand rose for various reasons, including the opioid
crisis. In 2016, approximately 92,000 children were
7. See O’Keefe, Southern Illinois Facing Foster Parent
Shortage, February 15, 2012, KFVS 12, https://www.kfvs12.com/
story/16945565/southern-illinois- experiencing-foster-parentshortage/ [https://perma.cc/2GXS-KBNZ]; see also Foster Care
Housing Crisis, Chronicle of Social Change, October 31, 2017, at 11
https://chronicleofsocialchange.org/wp-content/ uploads/2017/10/
The-Foster-Care-Housing-Crisis-10-31.pdf [https://perma.
cc/6685-ER75]: “Our research on the recent, state-by-state
changes suggests there is a national foster care housing crisis in
America. At least half of the states in the country have lost foster
care capacity in the past five years. Another 15 were not able to
provide enough information for us to even make a determination
of their capacity.”; see also Editorial Board, The Crisis in Foster
Care, January 10, 2020. https://w w w.washingtonpost.com/
opinions/the-crisis-in-foster-care/2020/01/11/81caa67e-33f6-11eaa053-dc6d944ba776_story.html [https://perma.cc/9FMV-N4LY].
8. See supra Foster Care Housing Crisis, Chronicle of Social
Change, at Appendix A, 14, and Appendix C, 29 (October 31, 2017)
(Youth in non-relative foster homes declined from 11,386 in 2012 to
9,839 in 2017 a loss of 1547 beds.). https://chronicleofsocialchange.
org/wp-content/uploads/2017/10/The-Foster-Care-HousingCrisis-10-31.pdf [https://perma.cc/5ZK9-VVR2].

17
removed from their home because at least one parent had
issues with drug abuse.9 While DCFS has tried to reduce
demand by increasing in-home care of distressed children,
this approach is not possible or desirable in all cases.
Consequently, qualified foster families are perennially
in short supply, meaning recruitment of foster families
is always a critical, ongoing need. The need to recruit
more foster parents is a constant refrain of child welfare
advocates and experts, as well as DCFS, which regularly
exhorts the public to consider fostering, and requires
foster care agencies to devise and implement foster parent
recruitment plans. Yet, while demand for foster care
families has risen, the supply of foster parents has not. It
is always difficult to find and keep suitable foster parents.
Compensation for foster care is low; the frustration level
in caring for stressed children is high.10 And many foster
children have special needs, who present an even greater
challenge for placement.
The importance of a loving, stable foster home for a
vulnerable child cannot be overstated. Failure to find such
foster homes has severe adverse outcomes for children in
need of foster care. One alternative to family placement is
group or institutional placement, which is vastly inferior
9. See U.S. Department of Health and Human Services,
Administration for Children and Families, Number of Children
in Foster Care Continues to Increase, November 30, 2017, https://
www.acf.hhs.gov/media/press/2017/number-of-children-in-fostercare-continues-to-increase [https://perma.cc/29DX-3BGE].
10. See Kay Lazar, For Foster Parents, Chaotic State System
Makes Job Even Harder, The Boston Globe, April 13, 2019, https://
www.bostonglobe.com/metro/2019/04/13/foster-families-dcffailing/1SlwDvK7MLDCyFaLVi9ZeP/story.html [https://perma.
cc/XC55-LM7D].

18
to family placement.11 Another is longer waits for family
placement, and overuse of existing foster homes, which
leads to foster parent burnout and higher foster home
turnover. A consequence of fewer foster homes is that a
greater number of foster children “age out” of the system,
meaning they never find a permanent home. Children
who age out of foster care on average fare much worse
than children who end up in loving foster family homes.
One in five will become homeless at age 18, only half are
employed, and less than 3% graduate from college. The
likelihood of unplanned pregnancy and PTSD are also
elevated.12
Over many decades, Catholic Charities built up an
extensive and productive network for locating, recruiting,
training, and qualifying foster care parents in the Illinois
counties where they worked. Of course, that is what
is required in order to find foster parent matches for
parental matches with the thousands of foster children
they served. Catholic Charities worked assiduously to
find foster parents by, among other effort, assigning paid
personnel to develop and implement recruiting plans. The
plans, which involved communicating with parishioners in
the hundreds of parishes their dioceses served, were an
11. See Emily Wax-Thibodeaux, We are Just Destroying
these Kids, The Washington Post, December 30, 2019, https://
w w w.washingtonpost.com/national/we-are-just-destroyingthese-kids-the-foster-children-growing-up-inside-detentioncenters/2019/12/30/97f65f3a-eaa2-11e9-9c6d-436a0df4f31d_story.
html [https://perma.cc/LT8E-YSJ2].
12. See Wayne Winston Sharp, The Human, Social,
And Economic Cost of Aging Out of Foster Care, Adoption
Advocate, May 2015, https://www.adoptioncouncil.org/files/large/
c29246a29debe09 [https://perma.cc/3CTK-VUCD].

19
important source of foster parents because faith-based
audiences are more likely to consider foster parenting
than non-churchgoing individuals and couples. For
example, Christians are almost three times more likely
to consider foster parenting than the general population
(31% vs. 11%).13
As a result of their efforts, Catholic Charities were
superior in locating, recruiting and qualifying foster
parents. Each year Catholic Charities were rated highly
in this portion of their performance reviews. Catholic
Charities of the Diocese of Springfield received special
recognition for its success in recruiting foster parents for
special needs children.
Termination of Catholic Charities in 2011 quashed
these efforts to recruit foster families. Since the State
refused any longer to supply foster children to Catholic
Charities or to license foster parents recommended by
Catholic Charities, Catholic Charities’ recruitment efforts
were terminated. The State’s action seriously harmed
Illinois children by constricting recruitment of available
foster parents in a system that critically needed them.

13. See Jedd Medefind, New Barna Research Highlights
Christian Adoption & Foster Care Among 3 Most Notable
Vocational Trends, February 12, 2014, https://cafo.org/2014/02/12/
new-barna-research-highlights-christian-adoption-foster-careamong-3-most-notable-vocational-trends/ [https://perma.cc/
J26E-P629].

20
3.

Illinois Risked Harmful Disruption of
Care to Illinois Children In Threatening
to Abruptly Transfer All of Catholic
Charities’ Cases to Other Agencies.

Illinois also potentially harmed Illinois children by
threatening to transfer at one fell swoop the hundreds
of foster cases managed by Catholic Charities. Removal
of a child from his or her natural family home commonly
causes a psycholog ical disorder named “reactive
attachment disorder”14 in the child, which is characterized
by symptoms of stress and anxiety and distrust of new
caregivers.15 Placement of foster children in successive
foster homes exacerbates this disorder.16 Changes in the
foster care team working with the child and the child’s
foster family also exacerbate this condition because
the care team now represents familial stability for the
14. See American Psychiatric Association Diagnostic and
Statistical Manual of Mental Disorders, (5th ed.), Arlington, VA:
American Psychiatric Publishing (2013), Section 313.389 (F94.1):
(“A consistent pattern of inhibited emotionally withdrawn behavior
toward adult caregivers, manifested by both of the following: the
child rarely or minimally seeks comfort; the child rarely responds
to comfort when distressed.”).
15. See Gean, M Gillmore, J., Dowler, Infants and Toddlers in
Supervised Custody: A Pilot Study for Visitation, 24(B) Journal
of the American Academy of Child and Adolescent Psychiatry,608,
610, (1985) https://www.jaacap.org/article/S0002-7138(09)60063-7/
pdf [https://perma.cc/5UJK-5LRD].
16. See Semanchin Jones, A., Wells, S., Wisconsin-Bremer
Project: Preventing Placement Disruptions in Foster Care, Center
for Advanced Studies in Child Welfare, (January 15, 2008), pg
4 https://cascw.umn.edu/portfolio-items/path [https://perma.cc/
F2UW-ADPP].

21
child.17 Successive placements reduce the child’s chances
of achieving permanency. For these reasons, foster care
agencies work toward stability in foster care relationships
and in minimizing change to the foster family dynamic as
well as to the agency case management team.
Treatment of a child’s reactive attachment disorder
commonly involves continuing psychological therapy
with the child and his or her foster family.18 The course
of treatment potentially could be ongoing throughout the
placement.19 Reactive attachment disorder therefore must
be considered and treated by the agency for the best long
term outcome for the foster child. Reducing the incidence
and severity of this condition is clearly in the best interest
of the child.
17. See Nichole Noonan, New Documentary On Reactive
Attachment Disorders, Institute for Attachment & Child
Development (January 1, 2018), www.instituteforattachment.org
[https://perma.cc/9RK6-VUX9]; see also, Karyn Purvis Institute
Child Development, TBRI: An Overview: Putting the Pieces
Together, YouTube (February 1, 2016) https://www.youtube.com/
watch?v=T43zJDgTNPA [https://perma.cc/LF6Z-TRCZ](see
15:20-19:10).
18. See Drisko, James W., Zilberstein, Karen, What Works
in Treating Reactive Attachment Disorder: Parent’s Perspectives,
89(3) Families in Society: The Journal of Contemporary Human
Services, 476, 477-78 (July 2008), https://www.researchgate.net/
publication /270399159_W hat_Works_in_Treating _Reactive_
Attachment_Disorder_Parents’_Perspectives.
19. See Chaffin, et al., Report of the APSAC Task Force
on Attachment Disorder and Attachment Problems, 2.1 Child
Maltreatment 76 (February 2006), https://depts.washington.edu/
hcsats/PDF/AttachmentTaskForceAPSAC.pdf [https://perma.cc/
E43H-EZNK].

22
When Illinois sought to exclude Catholic Charities
from providing foster care because Catholic Charities
wished to remain faithful to Roman Catholic Church
doctrine, the State was willing to jettison this important
principle of therapy in order to accomplish its ideological
goals. In order to pressure Catholic Charities to cave to its
demands, Illinois threatened to cancel and precipitously
remove foster children from Catholic Charities’ care and
transfer them to other agencies. It even sent a letter to
the agencies informing them where their cases were going
to be transferred in the event Catholic Charities failed
to acquiesce to the State’s demand that they forego their
religious convictions and agree to assess and qualify samesex foster parent applicants. The State was apparently
willing to perpetrate serious harm to foster children in the
form of discontinuity of care rather than to accommodate
Catholic Charities’ religious beliefs.
Catholic Charities, on the other hand, took a broader
view and realized that if the State acted precipitously as
it threatened to do, their foster children would be harmed.
For that reason, Catholic Charities dropped their litigation
appeal and agreed to work with the State to move all of
their foster care cases to other agencies as demanded by
the State. Catholic Charities released all of their foster
parents and all of their caseworkers to successor agencies
in order to ensure continuity of care for their children. In
doing so, they facilitated a safe transition for the children
whose interests the State, on the other hand, was willing
to sacrifice in order to exclude from the Illinois foster
care system any faith-based agency that did not tow the
State’s “party line.”

23
II. ILLINOIS’ CANCELLATION OF CATHOLIC
CH A RI T I E S’ FO ST ER CA RE SERV ICE S
HARMED THE BEST INTERESTS OF ILLINOIS
FOSTER CHILDREN, AND CONFERRED NO
BENEFIT ON SAME-SEX COUPLES, WHO
HAD READY ACCESS TO QUALIFICATION AS
FOSTER PARENTS.
The State of Illinois’ termination of the Catholic
Charities’ foster care services, and the harm it caused to
Illinois children in the foster care system, was needless
and unnecessary and failed to promote any countervailing
benefit to anyone. The State had in 2011 (and has now)
over one hundred private agencies and DCFS field offices
which are able and willing to assess and recommend for
licensure same-sex foster parent applicants. During the
2011 litigation surrounding Illinois’ requirement that all
foster care providers assess and qualify same-sex couples,
no evidence was advanced suggesting that same-sex
applicants were unable, or even had difficulty, in securing
assessments. For this reason, the State’s action to blacklist
Catholic Charities from participating in Illinois’ foster
care system served only to damage Illinois children, and
to violate Catholic Charities’ religious freedom, without
conferring a countervailing benefit to same-sex foster
parent applicants, or to anyone else. All that the State
accomplished was to harm amici curiae and Illinois foster
children by eliminating highly-rated foster care providers
who were particularly adept at recruiting foster parents
and caring for foster children.

24
III. CATHOLIC CHARITIES’ EXPERIENCE IN
ILLINOIS TEACHES THAT ACCOMMODATION
OF FAITH-BASED FOSTER CARE AGENCIES IS
NOT ONLY COMPATIBLE WITH THE INTEREST
OF S A M E - SEX COU PL E S T O QUA LI F Y
AS FOSTER PARENTS, IT IS NECESSARY
FOR SECURING THE BEST INTEREST OF
DISTRESSED CHILDREN IN NEED OF FOSTER
CARE.
The experience of Catholic Charities in 2011 in Illinois
is instructive because it shows that exclusion of faithbased foster care agencies in Illinois harmed children
(by eliminating superior foster parent agencies and their
recruitment networks as well as by risking discontinuities
of care for foster children) without providing any
corresponding benefit to anyone, including to same-sex
couples, who were always able to qualify as foster parents
through over a hundred other existing foster care agencies
in Illinois. The lesson should be clear: the Court should
respect and accommodate the free religious exercise of
faith-based agencies because to do so does not conflict with
the interest of same-sex couples to become foster parents
and, on the other hand, is necessary to prevent harm to
children in need of high quality foster care. The Court can
support each of these values without sacrificing any, and
should therefore do so. To do anything else would be to
encourage more initiatives to force faith-based providers
of critically needed services for vulnerable children to
abandon their religious practices in order to gain the
state’s permission to continue to provide such care. This
is folly the Court should not countenance.

25
CONCLUSION
For these reasons, amici curiae urge the Court to
reverse the Third Circuit’s decision.
Respectfully submitted,
Joan M. Mannix
Thomas More Society Special
Counsel
Joan M. Mannix, Ltd.
135 South LaSalle Street,
Suite 2200
Chicago, IL 60603
(312) 521-5845

Thomas Olp
Counsel of Record
Thomas Brejcha
Thomas More Society
A National Public Interest
Law Firm
309 W. Washington, Suite 1250
Chicago, IL 60606
(312) 782-1680
tolp@thomasmoresociety.org

Counsel for Amici Curiae

